Hntfeit JStates Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
March 19,2021
Before:
Michael Y. Scudder, Circuit Judge
Amy J. St. Eve, Circuit Judge
Thomas L. Kirsch, II, Circuit Judge
RICARDO BURGOS,
Petitioner-Appellant,
No. 20-3382

v.

] Appeal from the United
] States District Court for
] the Northern District of
] Illinois, Eastern Division.
]

UNITED STATES OF AMERICA,
Respondent-Appellee.

] No. l:19-cv-07305
]

] Ronald A. Guzman,
] Judge.
ORDER
On consideration of the papers filed in this appeal and review if the short record,
IT IS ORDERED that this appeal is DISMISSED for lack of jurisdiction.
Rule 4(a) of the Federal Rules of Appellate Procedure requires that a notice of
appeal in a civil case in which the United States is a party be filed in the district court
within 60 days of the entry of the judgment or order appealed. In this case judgment
was entered on May 1, 2020, and the notice of appeal was filed on November 30, 2020,
about five months late. The district court has not granted an extension of the appeal
period, see Rule 4(a)(5), and this court is not empowered to do so, see Fed. R. App. P.
26(b).

-over-

No. 20-3382

-Page 2-

In his notice of appeal petitioner-appellant Ricardo Burgos recounts his non­
receipt of the judgment in this case, stating that it was not until he received the district
court's docket sheet on November 6,2020, that he "learned of [the district court's]
denial of his § 2255 motion." Petitioner-appellant Ricardo Burgos goes on to "ask[] this
Honorable Court to grant this motion for equitable tolling, and accept this Notice of
Appeal as timely filed." This certainly looks like a request to reopen the time to appeal
under Fed. R. App. P. 4(a)(6). See 28 U.S.C. § 2107(c)(2). But, as the government correctly
points out, the notice of appeal was filed "outside of the parameters set by Rule 4(a)(6) and §
2107(c)(2)." See Armstrong v. Louden 834 F.3d 767 (7th Cir. 2016) (district court lacks authority to
reopen time to appeal if Rule 4(a)(6) time limits are not met).

' t

Case: l:19-cv-07305 Document #: 20 Filed: 05/01/20 Page 1 of 5 PagelD #:122

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
United States of America,
v.
Ricardo Burgos,
Defendant.

)
)
)
)
)
)
)

No, 19 C 7305
Judge Ronald A. Guzman

MEMORANDUM OPINION AND ORDER
Defendant's motion to vacate, set aside, or correct his sentence pursuant to 28 U.S.C. §
2255 [1] is denied for the reasons stated below. The Court denies a certificate of appealability.
Civil case terminated.
STATEMENT
Section 2255 provides that a criminal defendant is entitled to relief from his conviction
and sentence if "the court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack, or that there
has been such a denial or infringement of the constitutional rights of the prisoner as to render the
judgment vulnerable to collateral attack.” 28 U.S.C. § 2255(b). A court may deny a § 2255
motion without an evidentiary hearing if "the motion and the files and records of the case
conclusively show” that the defendant is not entitled to relief. Id. Relief under § 2255 is
available “only in extraordinary situations, such as an error of constitutional or jurisdictional
magnitude or where a fundamental defect has occurred which results in a complete miscarriage
of justice.” Blake v. United States, 723 F.3d 870, 878-79 (7th Cir. 2013).
On direct appeal from Defendant’s conviction, the Seventh Circuit summarized the facts
and posture of the case as follows:
Over a period of months in 2015, Ricardo Burgos sold small amounts of drugs to
undercover officers six times, handing over a total of 4.02 grams of crack and 1.4
grams of heroin. A few weeks after the last of these transactions, Burgos
recorded a music video at a hotel in Deerfield, Illinois in which he brandished a
.45 caliber pistol at the camera—a pistol that he later admitted was stolen and that
his past felony convictions barred him from possessing. Burgos was charged with
and pleaded guilty to one count of distribution of a controlled substance and one
count of unlawfully possessing a firearm. See 21 U.S.C. § 841(a)(1); 18 U.S.C. §
922(g)(1). After receiving concurrent 188-month and 120-month sentences, he
filed a notice of appeal. His appointed counsel asserts that the appeal is frivolous
and moves to withdraw, see Anders v. California, 386 U.S. 738.87 S. Ct. 1396,

' y

r'

Case: l:19-cv-07305 Document #: 20 Filed: 05/01/20 Page 2 of 5 PagelD #:123

18 L.Ed.2d 493 (1967); Burgos opposes the motion, see CIR. R. 51 (b). We grant
counsel's motion and dismiss the appeal.
United Stales v. Burgos, 745 Fed. App’x 636 (7th Cir. 2018). The Court notes that Defendant’s
sentence was enhanced for being a career offender under Chapter Four of the Sentencing
Guidelines, U.S.S.G. §§ 4B 1.1(a) and (b)(3), and Defendant’s counsel at sentencing did not
object to the enhancement. Defendant’s § 2255 motion seeks relief for ineffective assistance of
trial and appellate counsel.
To prevail on a claim that trial counsel was ineffective. Defendant must meet the two­
pronged test set forth in Strickland v. Washington, 466 U.S. 688 (1984), establishing that (1) his
lawyer’s performance fell below an objective standard of reasonableness and (2) that he was
prejudiced, i.e., there is a reasonable probability that the result of the proceedings would have
been different, but for his counsel’s unprofessional errors. Id. at 694. Defendant first argues that
trial counsel was ineffective at sentencing for failing to challenge as qualifiers for careeroffender status his prior convictions for aggravated battery of a peace officer, attempted
aggravated robbery, and possession of a controlled substance. “An attorney’ s failure to object to
an error in the court’s guidelines calculation that results in a longer sentence for the defendant
can demonstrate constitutionally ineffective performance.” Ramirez v. United States, 799 F.3d
845, 855 (7th Cir. 2015). As an initial matter, on direct appeal, the Seventh Circuit agreed with
appellate counsel’s “assessment that there are no non-frivolous arguments to be made about
[Defendant’s] career-offender status.” Bmgos, 745 Fed. App’x at 636. The Court agrees that
any challenge to Defendant’s career-offender status is meritless; thus, his assertion that counsel’s
performance regarding the relevant enhancement was deficient also fails.
Under the modified categorical approach to determining career-offender status for a
crime of violence, the Court “look[s] to the underlying documentation to determine if
[Defendant] was charged with aggravated battery because he "caused bodily harm,’ in which
case the crime qualifies as a crime of violence, or because he ‘made physical contact of an
insulting or provoking nature,’ in which case the crime would fall outside [the] definition of a
crime of violence.” United States v. Lynn, 851 F.3d 786,797 (7th Cir. 2017) (citation omitted).
Attached to the government’s version of the offense in this case was a copy of the state-court
indictment to which Defendant pleaded guilty, charging him with striking a peace officer “about
the body” and “knocking him to rhe ground,” thus committing an aggravated battery by
“intentionally or knowingly causing] bodily harm.” {UnitedStates v. Burgos, No. 16 CR 165,
Dkt. # 29, at 52.) Because this offense was properly used to support a career-offender
enhancement, counsel was not ineffective for failing to challenge its use at. sentencing.
With respect to Defendant’s attempted aggravated robbery, “any Illinois conviction for
attempted armed robbery ... would qualify as a crime of violence ....” United States v.
Andrews, 419 Fed. App’x 673, 676 (7th Cir. 2011). Thus, this conviction was properly used to
enhance Defendant’s sentence for being a career offender and counsel was not ineffective for
failing to argue otherwise, either at sentencing or on appeal.

2

Case: l:19-cv-07305 Document #: 20 Filed: 05/01/20 Page 3 of 5 PagelD #:124

Defendant also contends that sentencing counsel was ineffective for failing to argue that
his prior conviction for possession of a controlled substance should not have been used to
support career-offender status. But according to the presentence investigation report,, which was
adopted by the Court. Defendant's career-offender status was based on the two crimes of
violence discussed above, not the possession of a controlled substance. Accordingly, counsel
was not ineffective for failing to raise this issue.
Defendant also challenges appellate counsel's performance. To succeed on an ineffective
assistance of appellate counsel claim. Defendant must show that appellate counsel failed to argue
“an issue that is both obvious and clearly stronger than the issues actually raised.'' Mabel v.
Butler, 782 F.3d 882, 898 (7th Cir. 2015) (internal quotation marks omitted).

-t ■

Defendant first asserts that appellate counsel was ineffective for failing to challenge the
career-offender predicate offense of attempted aggravated robbery. Because, as discussed above,
the argument is meritless, counsel could not have been ineffective for failing to raise it on appeal.
Defendant next contends that appellate counsel was ineffective by not arguing that because his
civil rights had been restored by the state of Illinois, he could not be charged with being a felon
in possession of a firearm pursuant to 18 U.S.C. § 922(g). But Defendant fails to point to any
evidence, such as a letter from the state of Illinois, that his civil rights had been restored. See
Musgraves v. United States, No. 15 C 347, 2018 WL 1366616, at *4 (S.D. III. Mar. 16, 2018)
(denying § 2255 claim on the same ground because the defendant “[did] not presentf] any letter
indicating that his civil rights had been restored, nor d[id] he indicate that he took any steps to
restore his right to possess a firearm”). In fact, Defendant does not even “allege facts that, if
proven, would ... entitle[] him to relief.” Hicks v. United States, 886 F.3d 648, 652 (7th Cir.
2018). Therefore, the Court denies this basis for relief. i
In a supplement to his § 2255 motion, Defendant contends that a recent Supreme Court
case, Rehaifv. United States, 139 S. Ct. 2191 (2019), supports his claim that counsel was
ineffective when she did not challenge on appeal Defendant's conviction for being a felon in
possession of a firearm under § 922(g). In Rehaif the Supreme Court held that “in a prosecution
under 18 U.S.C. § 922(g) and § 924(a)(2), the Government must prove both that the defendant
knew he possessed a firearm and that he knew he belonged to the relevant category of persons
barred from possessing a firearm.'” Id. at 2200. The government argues that the claim is
procedurally defaulted. “In general, habeas corpus petitioners may not raise any issue that they
might have presented on direct appeal/’ Cross v. United States, 892 F.3d 288,294 (7th Cir.
2018). “A petitioner may, however, overcome procedural default by showing cause for the
default and actual prejudice, or that failure to consider the defaulted claim will result in a
fundamental miscarriage ofjustice.” Id. at 294-95 (internal citations and quotation marks
omitted). “Absent a showing of both cause and prejudice, procedural default will only be
1 In addition, in order to challenge his conviction, Defendant would have had to withdraw his
guilty plea. Appellate counsel indicated in her brief that she discussed withdrawing Defendant’s
plea with him, but he stated that he did not want to do so. (United Slates v. Burgos, No. 18-1284
(7th Cir.), Dkt. U 15, at 17.) (“[Cjounsel consulted [Defendant] as to whether he wished to seek a
withdrawal of his guilty plea. He indicated to counsel that he did not wish to do so.”)
3

Case: l;19-cv-07305 Document #: 20 Filed: 05/01/20 Page 4 of 5 PagelD #:125

excused if the prisoner can demonstrate that he is 'actually innocent’ of the crimes of which he
was convicted.1' McCoy v. United Slates, 815 F.3d 292, 295 (7th Cir. 2016). The Court agrees
that the claim is proceduraiiy defaulted because even if Rehalf, which applies retroactively on
collateral review, allows Defendant to satisfy the cause prong of procedural default, he fails to
establish prejudice. See Floyd v. United States, No. 19 C 6578, 2020 WL 374695, at *3 (N.D.
III. Jan. 23,2020) (finding defendant had failed to show prejudice and thus had proceduraiiy
defaulted claim based on Rehaif, staling that '*[i]t is inconceivable that [the defendant], at the
time he possessed the firearm, was unaware of [his prior] felony conviction and sentence. Given
this, there is no reasonable probability that [the defendant] would have declined to plead guilty
had he known that a § 922(g)(1) conviction required that he know at the relevant time that he had
been convicted of such a crime."). Likewise, in Floyd, the court rejected actual innocence (i.e., a
fundamental miscarriage ofjustice) as a basis for excusing procedural default: .

M'

Because the record indisputably shows that [the defendant] had been convicted of
a felony and sentenced to four years’ imprisonment, and because [the defendant]
does not and could not plausibly argue that he did not know of that conviction and
its sentence at the time he possessed the firearm, a jury properly instructed under
Rehaifsurely would have convicted him under § 922(g)(1).
Id. Here, as discussed below, Defendant’s guilty plea dictates the same result, and accordingly,
he cannot establish prejudice or actual innocence. The Court thus finds that Defendant’s Rehaif
claim is proceduraiiy defaulted.
Even if the claim is not proceduraiiy defaulted, it fails on the merits. According to
Defendant, he did not know he was forbidden from possessing a firearm. He again refers
generally to having one’s civil rights restored and contends that his appellate counsel should
have so argued. As already discussed, however, Defendant does not point to any evidence, or
even allege, that his civil rights have been restored. Moreover, Defendant pleaded guilty to the §
922(g) count, acknowledging in his plea declaration that *‘at the time he possessed the gun, he
had previously been convicted of a crime punishable by a term of imprisonment exceeding one
year.” (United States v. Burgos, No. 16 CR 165 (N.D. III.), Plea Deck, Dkt. # 25, at 3.) “Rehaif
does not require the [gjovemment [to] prove [that] a criminal defendant knew he was prohibited
from possessing firearms, only that he was included in a group generally excluded from
possessing firearms.” Alexander v. Entzel, No. 19 C 1301,2020 WL 1068060, at *3 (C.D. III.
Mar. 5,2020). In this case, Defendant’s guilty plea, along with his failure to point to any
evidence that his civil rights had been restored precludes his claim that he did not know that he
belonged to the category of persons barred from possessing a firearm. Accordingly, because a
claim under Rehaiffails on the merits, Defendant’s argument that appellate counsel was
ineffective for failing to make such an argument is also unavailing.
Finally, Defendant asks for relief under the First Step Act of 2018, apparently seeking
relief from a purported 5-year statutory minimum sentence on Count One for distributing crack
cocaine. Defendant’s argument is meritless because he was not subject to a statutory-minimum
sentence on Count One. (UnitedStates v. Burgos. No. 16 CR 165, Presentence Investigation
Report, Dkt. # 29. at 36.)

+4

*

Case: l:19-cv-07305 Document#: 20 Filed: 05/01/20 Page 5 of 5 PageiD #:126

Under § 2255 Rule 11(a). “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.’’ A petitioner is entitled to a
certificate of appealability only if he can make a substantial showing of the denial of a
constitutional right. See 28 U.S.C. § 2253(c); While v, United Slates, 745 F.3d 834, 835 (7th Cir.
2014). “[l]n cases where a district court denies a habeas claim on procedural grounds, the habeas
court should issue a certificate of appealability only if the petitioner shows that (I) jurists of
reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right, and (2) jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” United States v. Singleton, 03 CR 175.2014 WL 3558771,
at *4 (N.D. ill. July 17, 2014). Defendant has failed to make such a showing so a certificate of
appealability on the procedural ground for the Court’s ruling is denied. To the extent that the
Court’s denial of Defendant’s § 2255 motion is on the merits, Defendant must demonstrate that
“reasonable jurists could debate whether (or. for that matter, agree that) the petition should have
been resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (internal
quotation marks omitted); Lavin v.Rednour. 641 F.3d 830, 832 (7th Cir. 2011) (similar). Again,
Defendant has failed to make that showing, so a certificate of appealability is denied.

Date: May 1,2020
Ronald A. Guzman
^
United States District Judge

5

r

4

■*

IN THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN-DIVISION

United States of America,
Plaintiff,
v.
Civ.No.19CV-7305
Ricardo Burgos,
Petitioner,

PETITIONER'S TRAVERSE TO THE GOVERNMENT'S RESPONSE
MOTION
28U.S.C SECTION >2255
HIS
TO

Comes now Ricardo Burgos(fifereinafter) referred to as Petitioner
V

moves this Honorable Court to grant his 28 USC § 2255 motion to
vacate, set aside the conviction or correct the sentence. Section
2255 provides four

grounds that justify relief for a federal

prisoner who challenges the facts or length of his or her detention:
(1) "that the sentence was imposed in violation of the GonStittition
or laws of the United States; (2) "that the court was without juris<diction to impose such sentence; (3) "that the sentence was in
excess of the maximum authorized by law"; or (4) that the sentence
is 'otherwise subject to collateral attack".

(1)

. v

- *;

ISSUE I
TRIAL COUNSEL RENDERED INEFFECTIVE ASSISTANCE OF COUNSEL
FOR FAILURE TO CHALLENGE THE PREDICATE OFFENSE OF BATTERY
OF A PEACE OFFICER, IN VIOLATION OF PETITIONER'S
SIXTH
AMENDMENT U.S. CONSTITUTION

Petitioner asserts his trial counsel Mr.Krejci (hereinafter)
referred to as counsel rendered ineffective assistance of counsel
for failing to bring a 'challenge' to the 'aggravated battery' of
a peace officer‘.use as a predicate offense in order to enhance
him under the United States Sentencing Guidelines (hereinafter)
referred to as "USSG" section 4Bl. and 2.
Petitioner asserts the Sixth Amendment guarantees the right to
effective assistance of counsel in criminal prosecutions. See McMann
v. Richardson, 397 US 759 (1970). In Strickland v. Washington, 466
US 668 (1984), the Supreme Court established a two-prong test to
evaluate ineffective assistance claims. To obtain reversal of a
conviction under the Strickland standard, the defendant must prove
that counsel's performance fell below an objective standard of
reasonableness and that counsel's performance prejudice the defend­
ant resulting in an unreliable or fundamenally unfair outcome in the
proceeding.
In response to Petitioner's contention regarding counsel render­
ing ineffective for not challenging the aggravate battery of a peace
officer, the government asserts in pertinent part as follows:
"UQnihgithe sentencing hearing, Burgos attorney conceded
that Burgos was a career offender. R.57 at 2-3.Any
error related to this concession was harmless because

(2)

,

S’

- '*

the government raised the issue of whether Burgos's
aggravated battery of a peace officer conviction
qualified as a violent crime for purposes of a being
a career offender and the court properly determined
that Burgos was a career offender . . . Because there
is more than one way of committing battery,the mere
fact that a defendant as convicted of aggravated
battery is insufficient to establish that he committed
a crime involving force,"when the same criminal
statute punishes conduct that is and is not a crime
of violence for purposes of federal sentencing the
federal court is not permitted to determine which
kind of conduct the defendant engaged in if the
determination would require resolving a factual
dispute". United States v. Aviles-Solarzano, 623 F.3d
470, 473 (7th Cir.2010) . . . Since the government
produced appropriate documentation showing that
Burgos was convicted under the first prong of the
Illinois statute ,and since his conviction therefore
was properly used as a career offender qualifier,
Burgos's argument lacks merits'. His attorney did not
perform ineffectively regarding this issue.
See( Gov.R.at page(s) 6-8)

;

Petitioner asserts that contrary to what the government may
contest the Seventh Circuit precedent states otherwise and had counsel
usedi his knowledge and skills the outcome of the proceeding would have
been different. This is so due to the fact when a State statute
defines an offense various different ways to convict a defendant as
in t$^ case of Petitioner's predicates offense used to enhance him,the
court can not use the state predicate offense to enhance under.See
United States v. Evans, 576 F.3d 766 (7th Cir.2009)("Thus, the same
statute form of words, embrass two crimes:offense battery and forcible
battery. If the two crimes were in separate sections of the battery
statute (or within the same section but listed separately Nyhawan v.
v. Attorney General, 557 US 29,129 S.Ct 2294,174 L.Ed2d 22 (2009)
. . . But in United States v. Woods, supra another panel of this
Court has held that when a statute fails to place the crime that is

(3)

not a crime of violence,in separate sections (or in a list of
separate crimes in the same section), the defendant cannot be given
the crime-of-violence enhancement").at 768-769
The government does admit that "counsel failed to investigate",
this issue and "conceded" to it, which established 'deficient perform­
ance' . The prejudice incurred by such failure to investigate as
pointed out in Evans, supra,-that the statutory terms insulting
or provoking' covers a range of kind or concepts of battery, some
of which created a serious risk of injury and some of which do not.
As the Supreme Court have

said 'merely careless (even though

criminal and dangerous) conduct will not suffice,however 9

•

See Begay

v. United States, 553 US 137, 128 S.Ct 1581, 170 L.Ed 2d 490 (2008).
Petitioner receive more time due to counsel's failure to invest­
igate which resulted in Petitioner receiving more that 152 months more
since his proper USSG range is 36 months. This denied Petitioner's
right to effective assistance of counsel as guaranteed by the Sixth
Amendment.See Glover v.United States, 531 US 198, 203 (2001)("assum­
ing counsel erred in failing to press grouping arguments in sentencing
phase of defendant's trial and upon appeal, increase of sentence
from 6 to 21 months was prejudicial").;see Hall v. Washington, 106
F.3d 742, 749 (7th Cir. 1997)("Counsel's failure to investigate
for mitigating sentence rendered ineffective and formed prejudice") ;
See also Hinton v. Alabama,134 S.Ct 1081 (2014)("An attorney's
ignorance of a part of law that is fundamentally to his case combined
with his failure to perform basic research on that point is a quint­
essential example of unreasonable performance under Strickland").at
1089

(4)

Petitioner first would move this Honorable Court to have counsel
submit an affidavit agreeing or disagreeing to the claim of ineffect­
ive assistance of counsel lodged against him by Petitioner instead
of this Court accepting the government's theory of the case. See
Sneed v. Smith, 670 F.2d 1348,1354-55 (4th Cir.1982);See Clay v.
Director Juvenile Div. Dep't of Corrections, 631 F.2d 516 (7th Cir.
1980)("...We think that Petitioner's allegation that her counsel failed
to advise her of the defenses in question raise some question as to
the adequacy of representation, particularly as the allegations
were not contradicted by counsel's affidavit".at 522 ;See also
Stitts v. Wilson, 713 F.3d 887 (7th Cit.2013)("On the other hand,
trial counsel's affidavit is entirely silent about the extent of
his investigation.").at 895
Moreover, Petitioner asserts the government hasn't present any
precedent that the Seventh Circuit had an intervening en banc ruling
that changed the legal landscape of Evans,supra, and although the
government cited United States v. Aviles-SolarzanO, 623 F.3d 470
(7th Cir.2010), and United States v. Lynn,851 F.3d 786 (7th Cir.2017)
-neither case trumps Evans.See Wilson v. Cook,937 F.3d 1028 (7th Cir.
2019)("Principles of stare decisis require that we give considerable
weight to prior decisions unless and until they have been overruled
or undermined by the decision of a higher court, or other superven­
ing develops...").at 1035
Petitioner would like to be resentenced to time served since
he is not a career offender and he has completed his 36 months
for the crime, which is the only sentence he can receive on the offense.

(5)

ISSUE II
APPELLANT COUNSEL RENDERED INEFFECTIVE ASSISTANT OF COUNSEL BY
FOR FAILING TO CHALLENGE/RAISE PETITIONER WAS NOT A
FELON IN
POSSESSION OF A FIREARM PURSUANT TO 18 USC § 922(g),WHICH DENIED
HIM 'rC COUNSEL GUARANTEED BY THE SIXTH AMENDMENT U.S CONSTITUTION

Petitioner asserts that Appellant counsel rendered ineffective
assistance of counsel as guaranteed under the Sixth Amendment.See
McMan v. Richardson, 397 US 759 (1970) when he/counsel failed to
use his knowledge and skills to investigate Title 18 USC § 921(a)(20)(B) ,which states in pertinent part as follows:
"The terms "crime" punishable by imprisonment for a term
exceeding one year 'does not include, . . Any conviction
which has been expunged or set aside or for which a
person has been pardoned or has had "civil rights
restored" shall be considered a conviction for purposes
this chapter unless such pardon, expungement,or restor­
ation of civil rights expressly provides that the person
may not ship transport, possess or receive firearms".

Appellant

counsel at no time investigated Congress's Title

18 USC § 921(a)(20)(B), which was in effect during all of Petitioner's
prior conviction where Federal Reporters were replete with cases that
had been reversed because district court had rule that a gun Ufider
18 USC § 922(g) had taken place when in fact § 921(a)(20)(B) had
establish it did not.See Buchmeir v.' United State,581 F.3d 561 (7th ( •
Cir.2009).
The government asserts that in order for Petitioner to prevail
on this issue he/Petitioner must (1) seek withdraw his guilty plea;
(2)provide evidence that his civil rights were restored. These are
all legal performances that appellate counsel not the Petitioner did
not>

raised,by using

his knowledge and skills, since Appellate

counsel was appointed pursuant to 19 USC § 3006A "Criminal Justice
Act".See Mason v. Hanks, 97 F.3d 887 (7th Cir.1996)
Moreover, the government has stated that Appellate counsel
broke the attorney-client privilege by stating in pertinent part
as follows:
...Appellate counsel had no ability to challenge Burgos
convictions for being a felon in possession. Appellant
counsel considered the challenge and consulted with
Burgos who ultimately rejected this path on appeal".
See(Gov.R.at page(s) 10-11)
In United States v. Burnett, 641 F.3d 894 (7th Cir.2011), the
Seventh Circuit held (Nothing iii the statutory language asks what a
person believes ... Buchmeir used the anti-mouse-trapping language
to summerize the reason why Congress wrote 1( 921 (a) (20 ) ' to require
the firearm restoration to be in the communication- rather than, say
requiring the felon to search the whole of State law to discover
what rights he enjoyed . . . Buchmier held that the effect also does
not depends on' whether the recipient reads or understands the
communication").at 896
Moreover, the government researched the prior convictions :
Petitioner

had/have and claims "without pointed out for the court,"

which one is considered a felon for purposes of applying 18i<USC §
922(g).See Gov.R.at page 11 ("Defendant's first adult, felony
conviction occurred March 25, 2004 (R.57.at 11) and he had subsequent
felony conviction in 2007 (R.57.at 12) and 2012 (R.57.at 15),therefore
he would not have receive this letter in connection with at least
one felony conviction").
However, no adult conviction occurred in the State of Illinois
can be considered as a felon to invoke a conviction under § 922(g)
(7)

as held by the Seventh Circuit.See Burnett,641 F.3d 894 (7th.Cir
2011)("Illinois makes the restoration of (some) civil rights auto­
matic when a sentence has been fully served").at 896
Counsel performance was both deficient and prejudicial since
Petitioner would have received dismissal on count 7 due to the fact
he is not a felon and his 'civil rights' were -automatically restored
upon his release from Illinois State prison. See Cates v. United
States, 882 F.3d 731 (7th Cir.2018)("In closing its worth repeating
that the errors by trial and appellate counsel meant the difference
between a sentence capped at one year and a maximum penalty of life
in prison. We have little difficulty concluding.that the errors by
Cates counsel prejudiced his case. Relief under § 2255 is warranted.
We reversed and remand for further proceeding consistent with the
opinion").at 738
Petitioner move the

Court to hold a hearing on this issue with

the government's AUSA Jordan M.Matthews and counsels on Appellant
to determine what attorney diet privileges were breach by defense
counsel and when. Moreover, toJ dismiss count 7 and to order appellant
counsel to submit an affidavit agreeing or disagreeing to the privil­
ege the goverment attorney alleged he breached.

TRIAL AND APPELLANT COUNSEL FAILURE TO BRING A
CHALLENGE TO THE PREDICATE OFFENSE OF "ATTEMPT
AGGRAVATED ROBBERY,RENDER HIM INEFFECTIVE AS
COUNSEL, IN" VIOLATION 'OF. THE SIXTH AMENDMENT U. S
CONSTITUTION
Petitioner asserts his trial and Appeals counsel(s) failure to
bring a challenge to the "predicate" State Of Illinois offense
"Attempt Aggravated Robbery", denied him effective assistance of

counsel as guaranteed by the Sixth Amendment U.S Constitution. See
Strickland v. Washington, 466 U.S 668 (1984).
In Strickland, supra, the Supreme Court established a two prong
test to evaluate ineffective assistance claims. To obtain reversal
of a conviction under the Strickland standard,the defendant must
prove that counsel's performance fell below an objective standard
of reasonableness and that counsel's deficient performance prejudiced
the defendant resulting in an unreliable or fundmentally unfair
outcome in the proceeding.
The Government in its response to this claim cites United States
v. Andrews 419 Fed.Appx 673 (7th Cir. 2011) an unpublish opinion which
does not hold and precedenial value. See United States v. Townsend,
762 F.3d 641 (7th Cir.2014)("But unpublished decisions are not bind,

ing on subsequent panels. See 7th Cir.R. 32.1(b) . . . We disavow
anything in our unpublished decisions suggesting that district courts
retain common-law authority to reconsider a sentence").at 646-647.
Petitioner asserts that he did not perform any actions of threat
or intimidation to the alleged victim during his attmept aggravated
robbery that was used as a predicate offense in order to enhance
him under § 4Bl.2(a) and his counsel rendered ineffective for failing
to make this challenge and use the Seventh Circuit precedent in Jett,
infra, and Thoroton,infra.
As the government points out-'at the

time

petitioner

committed the state offense Illinois defined "attempt" as 'when with
intent' . . .a substantial step toward the commission of that offense".
720 ILCS 5/8-4(a) (2006).
However, as initially asserted in Petitioner's memorandum of law

(9)

•

in support of his § 2255 motion, the Supreme Court has dramatically
altered

the federal sentencing guidelines from mandatory to advisory.

See United States v. Booker, 543 U.S 220 (2005). Two recent develop­
ments also changed the way "attempt to commit crimes should be
considered under the 'residual clause' language, which involves
'conduct' that presents a serious potential risk of physical injury
to another in Johnson v. United States,135 S.Ct 2551 (2015) and
Session v. Dimaya, 200 L.Ed 2d

549 (2018).

The Seventh Circuit in numerous published decisions define
■ "attempt' to rob with the "intent

state of mindset as set out by the

Supreme Court in Rosemond v. United States,572 U.S 65 (2013).See United
State v. Jett, 908 F.3d 252 (7th Cir.2018)("Here however, the reason
for setting aside the attempt conviction (a lack of force or intimi­
dation) do not speak to the sufficiency of the conspiracy conviction.
In the Second case United States v. Thoronton, 539 F.3d 741,751 (7th
Cir.2008) we reversed a conviction

for attempted robbery based on

a lack of proof of intimidation (like here!. In so doing, we necessar­
ily had to reverse the attendant 18 USC § 924(c)(1)(A) cpnvictionn
for lack of the statutorily required predicate crime of violence").
at 274
Had counsel done his duty and found the case cited in this motion
during his sentencing and appeal the outcome would have been different
since federal reporters were repleted with cases- of 'attempt' intent
interpretation that were published. See United States v. Smith, 250 F.3d
1073 (7th Cir.2001)("Indeed, at the time Petitioner 'plea, the Federal
Reporters were replete with cases involving challenges to the notion
...").at 1057;see also Brock-Miller v.United States,887 F.3d 298
(7th Cir.2018)("A lawyer's failure to learn the relevant facts and make
(10)

}“

1 •

an estimate

of the likely sentence constitute deficient performance")

. at 310.
It< is worth mentioning that had counsel(s) done their duty the
Petitionr's USSG level would have been 24 to 36 months on count 1
not 188 months,which is. more than five times more than',-what fcfibeth^;
sentence would yield.rendered deficient as

well as prejudice.See

Cates v. United States, 822 F.3d 731 (7th Cir.2018)("in closing, its
worth repeating that the

error by trial and appellate counsel meant

the difference between a sentence capped at one year and a maximum
penalty of life in prison. We have little difficulty concluding that
the error by Cates counsel prejudiced his case. Relief under § 2255
is warranted").at 738
Petitioner moves this court to grant his §2255 and re-sentence
him to time served since, both counsel(s) rendered prejudice that
result in an overly excesses sentence.

UNDER REHAIF THE PETITIONER'S 18 USC § 922(g) SHOULD BE
DISMISSED SINCE HE DID NOT KNOWINGLY PLEAD TO SOMETHING
NEITHER THE COURT, COUNSEL OR THE GOVERNMENT ANTICIPAT­
ED

Petitioner asserts that he is actual innocent of the offense
18 USC § 922(g) solely due to the fact he did not plead "knowingly"
and intelligently to the § 922(g) as not even thb court, counsel
nor the government understood the essential element of the offense
the "knowingly" language must be met.See Rehaif v. United States,
139 S.Ct 2191, 204 L.Ed 2d 594 (2019)("Applying the word "knowingly"
to the defendant's status in § 922(g) helps advance the purpose of
scieter, for it helps tp separate wrongful from innocent acts. Assumm-

nn

ing compliance with ordinary licensing requirements, the possession
of a gun can be entirely innocent. See Staples, 511 US •

t

at 611, 114

S.Ct 1793, 128 L.Ed 2d 608. It is therefore the defendant's status
and not his conduct alone, that makes his behavior wrongful. His
behavior may instead be an innocent mistake to which criminal sanct­
ions normally attach. Cf. O. Holmes, The Common Law 3 (1881)("even
a dog distinguishes between being stumbled over and being kicked").
at 2197
Ifi resppnse to this issue the government first states-"Burgos
waived this issues

due to procedural

default". See (Gov.at 12-15)

The Seventh Circuit have held in Cross v. United States, 892 F.3d
288 (7th Cir.2018)("The government next raised the ubiquitious specter
of procedurally default. Because neither Cross nor Davis challenged
the constitutionality of the residual clause at trial or on direct
appeal, the government argues they are barred from doing so now. . .
We have no doubt -that an extended prison term-which was imposed on
both men as a result of their designation as career offendersconstitute prejudice.See Glover v.United States, 531 U.S 198, 203,
121 S.Ct 696, 148 L.Ed 2d 604 (2001). That narrow our inquiry to
whether they have shown cause for not objecting at trial. A change
in the law may constitute cause for a procedural default if it creates
'a claim that "is so noval that its legal basis is not reasonably
available to counsel", Bousley, 523 US.at 622 (quoting Reed v.Ross,
468 US 1,16, 104 S.Ct 2901, 82 L.Ed 2d 1 (1984). In Reed, the Court
identified three nonexclusive situations in which an attorney may
lack a 'reasonable

basis'

'to raise a novel claim'. First, a decision

of this court may explicitly overrule one of our precedents. Second,

(12)

a decision may 'overturn a longstanding and wide spread practice
to which this court has not spoken, but which a nearunanimous body
of lower court authority has expressly approved". And finally, a
decision may 'disapprove a practice this court arguably has sanctioned
in prior cases", Reed, 468 U.S.at 17 (quoting United States v. Johnson,
457 US 537, 551,.102 S.Ct 2579, 73 L.Ed 2d 202 (1982)").at 295
Therefore, although the Petitioner did not raise this issues
he still can raise it and be granted the sufficient release which is
dismissal of the charge of §922(g).See Cross,supra,(" Nonetheless,
when the Supreme Court reverse courses the change generally indicates
an abrupt

shift in law").The Petitioner represented the type of abrupt

shift in the Supreme Court's Rehaif decision and the governement
does acknowledge this.See Rehaif, supra,("In contrast, the maxim does
not normally apply where a defendant 'has a mistaken impression
concerning the legal effect of some collateral matter and that mistake
results in his misunderstanding the full significance of his conduct,"
thereby negating an element of the offense.Ibid.; See also Model Penal
Code § 2.04, at 27 (a mistake of law is a defense if the mistake
negates the "knowledge. . . required to establish a material element
of the offense").".at 2198
The Government can not prove that the Petitioner 'knew he belonged
to the relevant category of persons barred from possessing a firearm
as 18 USC § 921(a)(20)(B) exempt those who

civil rights were/are

restored can't be charged as a felon in possesion of a firearm as
well.See United States v. Burnett, 641 F.3d 894 (7th Cir.2011).
Petitioner would move to have the § 922(g) dismissed and resentenced
without it to time served after this court consider and grant the §
2255 motion.
(13)

PETITIONER MOVE THIS COURT TO DISMISS COUNT ONE OF HIS
PLEA< UPON THE FACT HE PLEAD TO FOUR GRAMS OF COCAINE
BASE CRACK AND HE IS ELIGIBLE FOR A REDUCE SENTENCE UNDER
SECTION 404 OF THE FIRST STEP ACT.

Petitioner asserts that he should have his case dismissed on
on count one because he only plead to four grams of cocaine base
and the First Step Act of 2018

clearly does not make criminal

crimes of less than 5 grams of cocaine base a crime. Petitioner's
circumstance,>the offense was committed after the Fair Sentencing Act
of 2010, but before the First Step Act was signed into law of 2018
756, 115th Cong.(2018). And had he been sentence today after the
"Act" became effective, he would not receive any prison time on
count one of the indictment. See United States v. Davis,2019 U.S
Dist.Lexis 36348 (W.D.N.C 2019)("Section 3 of the Fair.Sentencing
eliminated the 5 year mandatory minimum sentence for simple possess­
ion of crack cocaine.See United States v. Flagler, 2019 U.S. Dist.
Lexis 32913 (M.D Fla. 2019)("In October 2008 Mf.Flagler was sentenced
to 120 months imprisonment for distributing five or more grams of
cocaine base (count Five of the Superseding Indictment)

. . .

Retroactive application of the Fair Sentencing Act has no impact
on Mr.Flagler's sentence for count six. However, retroactively
applying the Fair Sentencing Act to count Five reduces Mr.Flagler's
guidelines to eighteen to twenty-four months and his term of super­
vised release is appropriate").
In response to this argument the government contested by stating
in pertinent part as follows(Therefore the First Step Act is not
retroactive. United States v. Jackson, 940 F.3d 347 (7th Cir. 2019)
Petitioner asserts that Congress made the First!‘Step^Actrretro(14)

active and it applies to him.
The Seventh Circuit's ruling in Jackson, supra,clearly did not
address a challenge to the the statutory interpretation of retroact­
ivity as outlined in

Lindh v. Murphy, 138 L.Ed 2d 481 (1997) i ’

The First Step Act was made retroactive as'expressed by Congress
and the- Section 404'pursuant to a cover

offense of 21 USC § 841(c)r

(1)(C) and anything less then 5 grams is no longer a crime to be
charged and punish under. See Flagler,supra,(" . . .Retroactive
application of the Fair Sentencing Act has no impact on Mr.Flagler's
for

count six. However, retroactive applying the Fair Sentencing

Act to count Five reduces Mr.Flagler’s guidelines to eighteen to
twenty-four months and his term of supervised release to maximum
of six years. The United States and Flagler agree that a new sentence
for count Five of Eighteen months imprisonment and six years of super­
vise release is appropriate"). In Lindh, supra, the Supreme Court
held("When a case implicates a federal statute enacted after the
events insuit,the court's first task is to determine whether Congress
has expressly prescribed the statute's proper reach. If Congress has
done so , of course, there is no need to resort to judicial default").
at 487
The Jackson, supra, court did not say the less than 5 grams that
was held retroactive in the First Step Act was not retroacitve because
it address a different subsection. See

Jackson,("Taking his prior

conviction, a mandatory minimum sentence of ten years on count 3
and life imprisonment on count 4").at 349
Petitioner asserts in sum that Jackson solely addressed "Section
401 of that Act, titled 'Reduce and Retricted Enhanced Sentencing of
Prior Drug Felonies", .

• t

Pub.L.No. 115-391. § 401(a)(2)(A)(ii).
(15)

,■

V*

Moreover,the Seventh Circuit Jackson,supra defendant was charged
in a six count superseding indictment with methamphetamine not crack
cocaine as in the case of Petitioner. Nor is Petitioner bringing a
challenge under that part of the First Step Act.
Therefore, Petitioner asserts

this Court should dismissed his

count 1 on the drug since it is clearly legal that he is in prison
for a crime that the law does not make criminal any more. See United
States v. Efrain, 342 F.S.2d 781 (N.D Ins 2004)("In any event, considing that a statute can have only one meaning from the date of its
effectiveness onward (unless of course, the language of the statute
has actually been changed by Congress), then where a court narrows
the scope of a statute under which a federal prisoner was previously
convicted, there exists the possibility that the prisoner now stands
convicted of an act that the law never made criminal,Bousley, 523 US
.at 620. This as it would be wholly contrary to our notion of justice
and fairness to allow a defendant to serve a prison term for an act
that is not, nor ever was a crime, defendants collateral attacking
their conviction are therefore entitled to the benefit of decisions
which give a federal criminal statute a more narrow reading than had
previously been applied to their own conviction Lanier, 220 F.3d.at
838; Ryan, 277 F.3d.at 1063-63; Barnhardt, 93 F.3d.at 708.See Gates
v. United States, 515 F.2d 75")
Petitioner finaly states that no one the government, counsel
nor the court could have reasonably have anticipated the First Step
Act would eliminate the 5-year statutory minimum sentence of less than
5 grams or simple possession of 4 grams as was pleaded to to be no
longer a crime to be penalized on.
Petitioner would move this honorable court to
(16)

dismiss the

count one.
Petitioner would like to be held to less stringent standards than
formal pleadings drafted by attorneys.See Hainse v.Kerner,404 U.S. 519
(1972), this be his prayer.
I.D#51022-424
P.0 Box 1000
U.S.P Leavenworth
Leavenworth,KS 66048
(17)
Dated 52^,2020

CERTIFICATE OF SERVICE
I,Ricardo Burgos, certify that I have served a true and complete
copy of:"Petitioner's Traverse To The Government's Response To His
28 USC § 2255 Motion,which was sent to the below parties and his
deemed timely filed when placed in the legal mail box at USP

1

Leavenworth.See Houston v.Lack,101 L.Ed 2d 245 (1988).

C/O Clerk- U.S District Court
United States District Court
219 S. Dearborn street
Chicago,Ill 60604

■ C/O Jordan M.Matthews
Assistant U.S Attorney
219 S Dearborn Street
Chicago,Ill 60604

dated 3. 'IQ, 2020
Ricardo Burgos(7
I.D#5l022-424
P.0 Box 1000
USP Leavenworth
Leavenworth, KS 66048

\

Case: 20-3382

Filed: 04/22/2021

Document: 14

Pages: 1

Unite!} States Court nf Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 22, 2021
Before
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
THOMAS L. KIRSCHII, Circuit Judge

No. 20-3382
RICARDO BURGOS,
Petitioner-Appellant,
v.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

UNITED STATES OF AMERICA,

No. l:19-cv-07305

Respondent-Appellee.

Ronald A. Guzman,

Judge.
ORDER
Upon consideration of Petitioner-Appellant's petition for rehearing filed on April
12, 2021, all members of the original panel have voted to deny the petition.
Accordingly, the petition for rehearing is hereby DENIED.

:M

*

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

NOTICE OF ISSUANCE OF MANDATE
April 30, 2021

To:

Thomas G. Bruton
UNITED STATES DISTRICT COURT
Northern District of Illinois
Chicago, IL 60604-0000

RICARDO BURGOS,
Petitioner - Appellant
No. 20-3382

v.
UNITED STATES OF AMERICA,
Respondent - Appellee

Originating Case Information:
District Court No: l:19-cv-07305
Northern District of Illinois, Eastern Division
District Judge Ronald A. Guzman
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and, judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD dN APPEAL STATUS:

No record to be returned

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period

will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

form name: c7_Mandate(form ID: 135)

Received by:

